TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                       Service Operations Command Center
                       Management Can Do More to Benefit
                        From Implementing the Information
                         Technology Infrastructure Library



                                         August 16, 2011

                              Reference Number: 2011-20-078




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 Email Address | TIGTACommunications@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                   HIGHLIGHTS


SERVICE OPERATIONS COMMAND                            incidents occurred because of problems with
CENTER MANAGEMENT CAN DO MORE                         software and were resolved by performing a
TO BENEFIT FROM IMPLEMENTING THE                      system reboot or stop/restart. TIGTA
INFORMATION TECHNOLOGY                                determined that the SOCCB needs to examine
                                                      incident reports to identify trends within the
INFRASTRUCTURE LIBRARY
                                                      information technology infrastructure, making its
                                                      Problem Management activities proactive.
Highlights                                            TIGTA also determined that SOCCB
                                                      management did not conduct a baseline
Final Report Issued on August 16, 2011                assessment of SOCCB staffing and workload
                                                      and does not have a documented strategic plan
Highlights of Reference Number: 2011-20-078           to communicate its goals and priorities with
to the Internal Revenue Service Chief                 milestone and target dates. In addition, the
Technology Officer.                                   current performance measures do not address
                                                      whether work is performed efficiently and
IMPACT ON TAXPAYERS                                   effectively.
The Enterprise Operations organization Service        WHAT TIGTA RECOMMENDED
Operations Command Center Branch (SOCCB)
exists in part to ensure that normal information      TIGTA recommended that the Associate Chief
technology service operations are maintained for      Information Officer, Enterprise Operations,
servers and mainframes by using the three             ensure that SOCCB management revises
Information Technology Infrastructure Library®        SOCCB procedures to address ticket trending,
(ITIL) processes of Event Management, Incident        perform a staffing and workload analysis of the
Management, and Problem Management. If the            SOCCB, update the Enterprise Operations
SOCCB does not effectively implement these            organization’s strategic plan whenever a
ITIL best practices, service outages may not be       SOCCB ITIL best practice is required to support
addressed efficiently and the Internal Revenue        the goals or objectives of the organization,
Service (IRS) will not be effectively utilizing       ensure development and execution of a training
taxpayer resources.                                   plan, and identify and implement additional ITIL
                                                      performance measures.
WHY TIGTA DID THE AUDIT
                                                      In their response to the report, IRS officials
The overall objective of this review was to           agreed with all of the recommendations. The
determine whether the SOCCB has effectively           IRS plans to revise procedures to account for
implemented ITIL best practices to ensure             trending activities of its incident tickets, perform
service delivery management for Enterprise            a staffing and workload analysis, update the
Operations organization products and services.        Enterprise Operations strategic plan for Problem
                                                      Management, develop and execute a training
WHAT TIGTA FOUND
                                                      plan, and identify and implement performance
SOCCB management incorporated Event                   measures.
Management, Incident Management, and
Problem Management best practices into
SOCCB policies and procedures and daily
operations. In addition, personnel resolved the
majority of incident tickets within the required
time periods.
TIGTA analyzed the 312 Fiscal Year 2010
incident tickets worked by the systems
administrators and computer support specialists
and determined that 145 (46 percent) of the
tickets pertained to three systems. Most of the
                                           DEPARTMENT OF THE TREASURY
                                                WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                           August 16, 2011


 MEMORANDUM FOR CHIEF TECHNOLOGY OFFICER

 FROM:                       Michael R. Phillips
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Service Operations Command Center
                             Management Can Do More to Benefit From Implementing the
                             Information Technology Infrastructure Library
                             (Audit # 201020006)

 This report presents the results of our review to determine whether the Service Operations
 Command Center Branch has effectively implemented Information Technology Infrastructure
 Library® best practices to ensure service delivery management for Enterprise Operations
 products and services. This review was included in our Fiscal Year 2010 Annual Audit Plan and
 addresses the major management challenge of Modernization of the Internal Revenue Service.
 Management’s complete response to the draft report is included as Appendix V.
 Copies of this report are also being sent to the IRS managers affected by the report
 recommendations. Please contact me at (202) 622-6510 if you have questions or
 Alan R. Duncan, Assistant Inspector General for Audit (Security and Information
 Technology Services), at (202) 622-5894.
                                 Service Operations Command Center Management
                                  Can Do More to Benefit From Implementing the
                                   Information Technology Infrastructure Library




                                             Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 3
          Actions Have Been Taken to Implement Information
          Technology Infrastructure Library Best Practices and
          Provide Timely Service................................................................................. Page 3
          Service Operations Command Center Branch
          Management Can Do More to Become Proactive and
          Closer to the Target State .............................................................................. Page 4
                    Recommendation 1:........................................................ Page 7

                    Recommendation 2:........................................................ Page 8

          Additional Management Actions Are Needed to Ensure
          Long-Term Success of the Service Operations Command
          Center Branch ............................................................................................... Page 8
                    Recommendations 3 through 5:......................................... Page 12


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 13
          Appendix II – Major Contributors to This Report ........................................ Page 16
          Appendix III – Report Distribution List ....................................................... Page 17
          Appendix IV – Glossary of Terms ................................................................ Page 18
          Appendix V – Management’s Response to the Draft Report ....................... Page 21
        Service Operations Command Center Management
         Can Do More to Benefit From Implementing the
          Information Technology Infrastructure Library




                 Abbreviations

FY         Fiscal Year
IRS        Internal Revenue Service
ITAMS      Information Technology Assets Management System
ITIL       Information Technology Infrastructure Library®
MITS       Modernization and Information Technology Services
RCA        Root Cause Analysis
SOCCB      Service Operations Command Center Branch
                               Service Operations Command Center Management
                                Can Do More to Benefit From Implementing the
                                 Information Technology Infrastructure Library




                                               Background

The Enterprise Operations organization supports the Modernization and Information Technology
Services (MITS) organization by providing efficient, cost effective, secure, and highly reliable
computing (mainframe and server) services for all Internal Revenue Service (IRS) business
entities and taxpayers. The Enterprise Operations organization has seven organizations that
work to fulfill this mission. One of the organizations, the Enterprise Computing Center,1 is
responsible for providing support for the systems used to receive and process tax returns and
payments, all infrastructure servers enterprise-wide, and application servers located in the
10 campuses and non-Enterprise Computing Center sites.
The Service Operations Command Center Branch (SOCCB) – also referred to as the Command
Center – falls under the purview of the Enterprise Computing Center and ensures that normal
information technology service operations are maintained for mainframes and servers. The
SOCCB consists of two sections:
      •    Service Operations Command Center Section – employs 64 systems administrators and
           computer support specialists to perform Event Management and Incident Management
           activities on the IRS’s mainframes and servers.
      •    Service Operations Management Section – employs 11 information technology
           specialists to perform Problem Management activities for the entire MITS organization
           and to facilitate the Service Restoration Team’s part of Incident Management.
Event Management, Incident Management, and Problem Management processes originate from a
set of concepts and techniques called the Information Technology Infrastructure Library® (ITIL).
The ITIL provides a set of best practices for managing Information Technology services and
aims at delivering those services to satisfy the business requirements of the organization. The
ITIL also provides for a common set of terminology to be used between MITS organization
operations, which helps increase customer service and reduce costs. Because the ITIL provides
general guidance for what to do rather than how to do it, it is often described as a framework or
approach. Figure 1 synopsizes a timeline of events that SOCCB management highlighted
regarding its accomplishments in standing up and implementing ITIL best practices over the last
5 years.




1
    See Appendix IV for a glossary of terms.
                                                                                            Page 1
                         Service Operations Command Center Management
                          Can Do More to Benefit From Implementing the
                           Information Technology Infrastructure Library



       Figure 1: Timeline of ITIL Best Practices Implementation at the SOCCB

           Date                                           Highlighted Events
 October 1, 2006         The SOCCB stood up. The Service Restoration Team process and limited Root Cause
                         Analysis (RCA) support was in place at stand-up.
 Fiscal Year (FY) 2007   SOCCB management negotiated a stand-up/reassignment agreement with the National
                         Treasury Employees Union, solicited for volunteers to come to the SOCCB, and
                         competitively announced/filled remaining vacancies.
 FY 2008                 The SOCCB represented being the first organization to their knowledge with employees
                         outside of the Enterprise Computing Center–Martinsburg supporting workloads (without
                         increasing authorized staffing).
 May 2009                The SOCCB established the Knowledge Database.
 September 2009          The SOCCB completed migration of monitoring/triage/resolution for Priority 1/Priority 2
                         service tickets for Enterprise Computing Center networked production servers.

 September 2010          The SOCCB completed migration of monitoring/triage/resolution for Priority 1/Priority 2
                         service tickets for Enterprise Computing Center mainframe workloads.
 FY 2011                 The SOCCB implemented a process to ensure follow-up and Knowledge Database
                         updates for all SOCCB tickets that have to be reassigned for lack of documentation.

Source: SOCCB management .

This review was performed at the SOCCB locations in Martinsburg, West Virginia, and
Memphis, Tennessee, during the period July 2010 through April 2011. We conducted this
performance audit in accordance with generally accepted government auditing standards. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objective. We
believe that the evidence obtained provides a reasonable basis for our findings and conclusions
based on our audit objective. Detailed information on our audit objective, scope, and
methodology is presented in Appendix I. Major contributors to the report are listed in
Appendix II.




                                                                                                        Page 2
                            Service Operations Command Center Management
                             Can Do More to Benefit From Implementing the
                              Information Technology Infrastructure Library




                                     Results of Review

Actions Have Been Taken to Implement Information Technology
Infrastructure Library Best Practices and Provide Timely Service

The SOCCB updated its policies and procedures to incorporate ITIL best
practices
In September 2010, the Chief Technology Officer outlined a goal to have the MITS organization
implement ITIL best practices over the next several years. The SOCCB has incorporated the
ITIL best practice principles of Event Management, Incident Management, and Problem
Management into its Concept of Operations and policies and procedures. In addition, the
SOCCB has made these best practices a part of the way it does business by utilizing a
Knowledge Database. This database provides personnel with the source for resolving incident
tickets and is continually updated with new information.

Incident ticket resolutions occur within documented service level agreement time
periods
The MITS organization service level agreement provides for a 4-hour response time on a
Priority 1 ticket and an 8-hour response time on a Priority 2 ticket. Our analysis of Information
Technology Assets Management System (ITAMS) data showed that 3051 of the 312 tickets
worked by Command Center personnel were resolved within the documented time periods.
Figure 2 shows the average time to resolve these types of tickets.
            Figure 2: Average Resolution Times for Priority 1 and 2 Tickets

                         FY 2010                            Priority 1                Priority 2
         Number of Tickets Received                             50                       262
         Average Time to Resolve                       1 hour 39 minutes             55 minutes
         Response Time Per Service Level                     4 hours                   8 hours
         Agreement
       Source: Our analysis of ITAMS data.



1
 This excludes the Priority 1 and Priority 2 tickets considered Unscheduled Maintenance Requests and worked by
an outside vendor.
                                                                                                        Page 3
                            Service Operations Command Center Management
                             Can Do More to Benefit From Implementing the
                              Information Technology Infrastructure Library



While the SOCCB has implemented Event Management, Incident Management, and Problem
Management best practices into its environment, additional improvements are needed to show
continued progress with and demonstrate efficiencies gained from implementing them.

Service Operations Command Center Branch Management Can Do
More to Become Proactive and Closer to the Target State
We reviewed the incident tickets worked by SOCCB personnel during FY 2010, the current staff
size within the SOCCB, and a recent independent contractor’s ITIL assessment of the SOCCB’s
efforts to adopt ITIL best practices in evaluating whether the SOCCB is moving closer to the
target state. Our analyses found that SOCCB management can improve the following activities
to help them become more proactive.

Command Center Section personnel should examine incident reports to identify
trends within the information technology infrastructure
We analyzed the 312 FY 2010 incident tickets worked by the systems administrators and the
computer support specialists looking for trends among the project type, cause of the incident, and
how the incident was resolved. Figure 3 shows that 145 (46 percent) of the tickets pertained to
3 systems. Most of the incidents occurred because of problems with software (e.g., system,
server, or application) and were resolved by performing a system reboot or stop/restart.
                   Figure 3: Top Three Causes and Most Common Resolution
                           of Incident Tickets by System Name

                                  # of Incident                                      Most Common
             System Name             Tickets       Top Three Ticket Causes            Resolution
     Account Management                63         Application Software (28)    Stop/Restart and Reboot
     Services                                     System Error2 (8)
                                                  No Trouble Found (8)
     E-Services                        53         Unknown (18)                 Reboot
                                                  Application Software (12)
                                                  Other3 (10)
     Totally Automated                 29         System Error (22)            Stop/Restart and Reboot
     Personnel System                             Application Software (3)
                                                  Server Software (3)
     Total                             145
    Source: Our analysis of ITAMS data.

2
 SOCCB management described a system error as one that occurs due to a problem with the service software suite.
3
 SOCCB management indicated this cause code is used synonymously with “Unknown” (i.e., the employee could
not identify what caused the incident ticket to occur).
                                                                                                         Page 4
                        Service Operations Command Center Management
                         Can Do More to Benefit From Implementing the
                          Information Technology Infrastructure Library



When asked to provide details about the incident ticket trends we observed, SOCCB
management explained that the high volume of tickets for Account Management Services
occurred partly because of a new release of the system for which Command Center personnel
had to perform the work. In addition, Account Management Services generally has the most
users, thus increasing the likelihood for generating more incident tickets. SOCCB management
also described e-Services as a complex system requiring a MITS-wide approach to resolution,
while simultaneously implementing workarounds (e.g., reboots) to minimize impact to the
customer until the underlying root cause was addressed.
According to ITIL foundations, Problem Management is both a reactive and proactive process.
Reactive means solving problems uncovered by Incident Management or other sources, whereas
proactive means looking for potential problems before they are reported as an incident. The
Operations Management Section of the SOCCB conducts RCAs to facilitate its Problem
Management activities and mitigate the impact of system downtime/lost productivity by
identifying the root cause, a workaround, and ultimately a permanent solution. However, the
current RCA process performed by the Operations Management Section is reactive and only
performed if requested by an internal MITS organization stakeholder or if directed by an IRS
executive.
Reviewing incident ticket data to discover the types of problems that occur more frequently can
help the SOCCB identify problems that may occur in other places within the IRS’s information
technology infrastructure, as well as show that repeated failures have not been adequately
resolved and are likely to continue to occur. This move towards proactive Problem Management
will help the SOCCB improve its overall effectiveness by posturing itself to identify problems
before they occur and result in outages or lost productivity to its customers.
Figure 4 shows a recent ITIL assessment completed by an independent contractor that identified
the current and target state for each SOCCB ITIL best practice. The independent contractor’s
assessment supports our observations that the current state of Problem Management activities
within the SOCCB is reactive and notes the desired target state of trending incidents as part of
proactive Problem Management.




                                                                                          Page 5
                           Service Operations Command Center Management
                            Can Do More to Benefit From Implementing the
                             Information Technology Infrastructure Library



         Figure 4: Current and Future State of ITIL Best Practices at the SOCCB

        Best Practice                      Current State                                  Target State
    Event Management       The SOCCB reacts to and investigates          The SOCCB resolves events before user
                           service outages after they have been          notices/reports problem.
                           reported.
                                                                         Correlate repeat events to provide for
                           Some events automatically create incident     additional automatic escalation to an
                           tickets.                                      incident.
    Incident Management    All incidents are logged and tracked.         Incidents proactively tracked and
                                                                         escalated to ensure service level
                           Basic service level agreements are in place
                                                                         agreements are met.
                           to monitor resolution.
    Problem Management     The bulk of problem resolution is             Trend incidents to create problems on an
                           recurring incident-based as opposed to        ongoing basis.
                           proactive Problem Management.
                                                                         Report incident trends and resolutions
                                                                         through proactive management.
Source: Enterprise Operations organization, ITIL Maturity Assessment dated September 30, 2010.

The Government Accountability Office’s Internal Control Management and Evaluation Tool4
explains that managers at all activity levels should review performance reports, measure results
against targets, and analyze trends.
SOCCB management stated they currently do not have sufficient staffing in the Operations
Management Section to move more toward proactively identifying recurring incidents and
creating RCA tickets that will identify why problems occur and provide a permanent solution.
To address the staffing issue, Enterprise Operations organization management negotiated the
transfer of vacant positions from other MITS organization programs to help perform this kind of
work.

SOCCB management needs to baseline their staffing with workload
The SOCCB formally stood up in FY 2007, with approximately 25 personnel operating in a
24 hours a day, 7 days a week, 365 days a year environment. At that time, SOCCB management
submitted a request for organization change indicating that a total of 92 personnel (systems
administrators, information technology specialists, and customer support specialists) were
needed to support program activities. As of July 2010, the SOCCB employed 75 personnel to
handle Event Management, Incident Management, and Problem Management activities.
The 64 systems administrators and computer support specialists (which handle Event and
Incident Management) support three different workloads split between mainframes and servers.
According to SOCCB management, there are more than 3,300 servers and 15 different

4
    GAO-01-1008G, dated August 2001.
                                                                                                             Page 6
                              Service Operations Command Center Management
                               Can Do More to Benefit From Implementing the
                                Information Technology Infrastructure Library



mainframes that require monitoring. During FY 2010, these personnel resolved 312 incident
tickets (an average of 5 tickets per employee), updated the Knowledge Database, performed
event monitoring activities, and reviewed and updated more than 700 Probe and Response
guides. According to SOCCB management, these personnel also assist with other work
(e.g., communicating with stakeholders regarding changes to monitoring thresholds) that
supports Event and Incident Management activities. SOCCB management also indicated that the
amount of time spent per activity varies based on the task/situation.
According to industry expert Gartner Group,5 “developing a portfolio of standardized
information technology services with repeatable process methodologies for service delivery and
support will help information technology organizations improve information technology service
quality, reduce costs, and increase business value and agility,” and “a cost-effective information
technology organization can do more with less – or at least do more with the same.”
One way for an organization to measure its success and know if it is “doing more with less” is to
perform a staffing and workload analysis. When the SOCCB stood up in FY 2007, it did not
initially baseline its staffing needs against its workload, and it has yet to perform a staffing and
workload analysis. Having this information readily available will allow SOCCB management to
demonstrate to upper management the direct relationship between staffing and support levels and
the impact any reductions or increases in staffing might have on service levels.
Management’s Responsibility for Internal Control (Office of Management and Budget
Circular A-123) states that managers are responsible for increasing productivity and controlling
costs of agency operations. The Government Accountability Office’s Standards for Internal
Control in the Federal Government6 stipulates that program managers need both operational and
financial data to determine whether they are meeting their goals for effective and efficient use of
resources.

Recommendations
The Associate Chief Information Officer, Enterprise Operations, should:
Recommendation 1: Ensure SOCCB management revises SOCCB standard operating
procedures to account for MITS-wide trending activities of its incident tickets to help identify
repeat occurrences of incidents that can be used to proactively address problems, increase
efficiency, and result in fewer repeat incidents in the future.
           Management’s Response: The IRS agreed with this recommendation. The SOCCB
           has completed the hiring of the additional Problem Management staff, and all were



5
    IT Infrastructure and Operations Leaders Key Initiative: ITIL and Process Improvement, dated January 16, 2009.
6
    GAO/AIMD-00-21.3.1, dated November 1999.
                                                                                                           Page 7
                               Service Operations Command Center Management
                                Can Do More to Benefit From Implementing the
                                 Information Technology Infrastructure Library



           onboard on June 19, 2011. The SOCCB will revise the standard operating procedures to
           account for MITS-wide trending activities of its incident tickets.
Recommendation 2: Perform a staffing and workload analysis of the SOCCB to demonstrate
the relationship between staffing and service levels and help identify opportunities to improve
information technology service quality, reduce costs, and increase business value.
           Management’s Response: The IRS agreed with this recommendation. Currently,
           the SOCCB has the minimum staff per each work specialty and, due to budgetary,
           National Treasury Employees Union, and Labor Relations constraints, is unable to make
           any adjustments to the staffing model. However, the SOCCB will perform a staffing and
           workload analysis to determine the relationship between staffing and service levels and
           help identify opportunities to improve information technology service quality, reduce
           costs, and increase business value in anticipation of the ability to acquire or adjust
           resources.

Additional Management Actions Are Needed to Ensure Long-Term
Success of the Service Operations Command Center Branch
We reviewed the organizational goals, personnel training history, and currently established
performance measures to evaluate whether the SOCCB can effectively and efficiently
accomplish its mission. Our review found that SOCCB management can make improvements in
the following areas to help ensure future program success.

The SOCCB needs a strategic plan and vision for maturing the implementation of
the ITIL best practices
Although SOCCB management has incorporated the ITIL best practice principles of Event
Management, Incident Management, and Problem Management into SOCCB daily operations
and updated its policies and procedures, they have not documented any milestones leading to
maturing these best practices or long-range goals that will show the intended benefits. SOCCB
management has been more focused on getting policies and procedures updated and responding
to new workload requests versus documenting a baseline organization, vision for the future, and
a plan to show how they will attain their future vision. SOCCB management has developed an
action plan for when they transition new work, but the plan does not show specific time periods
associated with completing the transition (of planned new workloads) or the desired outcomes of
the transition efforts to include how those efforts will help the SOCCB most efficiently and
effectively leverage and mature implementation of ITIL best practices.
The first quarter FY 2011 version of the Enterprise Operations organization’s 5-year strategic
plan,7 which SOCCB management provides input to, contains two objectives and goals regarding

7
    Enterprise Operations organization management reviews and updates its strategic plan quarterly.
                                                                                                      Page 8
                              Service Operations Command Center Management
                               Can Do More to Benefit From Implementing the
                                Information Technology Infrastructure Library



the ITIL. To support the objective of improving filing season execution, the strategic plan states
a goal of continuously improving service to customers and identifies that the SOCCB will
expand its Problem Management activities. However, the strategic plan does not contain any
milestones or target dates for the expansion, disclosing that these actions are pending the
additional resources negotiated from the other MITS organizations. In addition, the strategic
plan states another goal of delivering improved business capabilities and governance, identifying
that building the foundation of the ITIL will help strengthen program management capabilities
and accountability. The strategic plan does not contain a description of what this means, reflect
any milestones or target dates, or provide a list of anticipated benefits.
According to industry best practices, to be successful in the ITIL, a deliberate, well-planned
project management approach should be adopted. Key activities in this approach include
creating an overall vision and strategy, developing a project plan and managing it effectively,
and assigning accountability for desired outcomes. A strategic plan outlines an organization’s
priorities and communicates to employees, internal stakeholders, and external stakeholders how
it plans to accomplish those priorities. Without a documented plan and strategy for maturing
ITIL best practices relevant to the SOCCB, it will be difficult for management to demonstrate
their efforts to make Command Center processes more efficient and influence decisions among
their stakeholders.

Personnel need customized training to effectively implement the ITIL
In our review of the training records, we determined 44 of 50 SOCCB personnel that received
ITIL training completed an ITIL foundations course. The foundations course is an entry-level
course designed to provide candidates with a general awareness of the key elements, concepts,
and terminology used in the ITIL. We also determined that almost 90 percent (44 of 50) of the
SOCCB personnel received training from 2 years to 4 years ago (during Calendar Years 2006
through 2008). In addition, some personnel completed training in an ITIL best practice area
(e.g., financial and security management, service level, and capacity management) that did not
align with the specific work completed by the SOCCB. According to SOCCB management, this
training was completed as part of mandatory annual Federal Information Security Management
Act8 security training requirements.
Industry best practices require that ITIL training be customized to suit individual roles and
responsibilities. SOCCB management previously expressed concerns about their ability to fund
ITIL training for their personnel, and this might explain why a formal training plan has not been
developed and implemented. Creating and executing a training plan will allow SOCCB
management to ensure that their personnel consistently remain a valuable part of a highly skilled
and high-performing workforce to support the SOCCB and IRS missions.



8
    44 U.S.C. Sections 3541 – 3549.
                                                                                           Page 9
                            Service Operations Command Center Management
                             Can Do More to Benefit From Implementing the
                              Information Technology Infrastructure Library



Additional measures are needed to capture the improved efficiency and
effectiveness resulting from ITIL implementation
The SOCCB workload primarily consists of monitoring operations and working incident tickets.
An incident ticket is routed to systems administrators or computer support specialists by one of
three methods: 1) a user calls in a ticket, 2) the ITAMS generates a ticket, or 3) the Command
Center receives an alert announcing, for example, that a server is going down. An alert is
designed to prevent/minimize a work stoppage. When the SOCCB receives a ticket, personnel
will search for a resolution via the Knowledge Database. Generally, systems administrators and
computer support specialists have 30 minutes to close and/or reassign an incident ticket before it
is elevated to a subject matter expert.
Currently, SOCCB management has established the following goals to measure SOCCB
performance each fiscal year:
    •   Tickets Opened for Errors Recognized Through Event Management. Goal: 20 percent
        increase by 4th quarter (compared to 1st quarter).
    •   Probe and Responses Updated to Reflect the SOCCB as the Primary Assignment Group
        for Priority 1 and 2 Tickets. Goal: 100 percent for Enterprise Computing Center
        networked servers.
    •   Number of Priority Tickets Triaged/Closed. Goal: 80 percent worked/closed without
        reassignment.
However, the first 2 of the 3 measures are broad goals that do not address whether the work is
performed efficiently [i.e., work completed within reported time periods (e.g., number and
percentage of tickets resolved in 30 minutes)] or effectively (i.e., quality resolutions or
nonrecurrence of problems). In addition, none of the current measures allow SOCCB
management to track continuous improvements, and there are no measures to ensure that the
SOCCB is meeting its RCA goals.9
Industry best practices emphasize that identifying the appropriate measures, creating a process
for collecting and analyzing the data, and effectively using the data to guide and direct continued
improvement are essential to establishing a successful measurement process. Meaningful key
performance indicators should align with organizational goals and provide insight into the
following:
    •   Quality – How well is the process working?
    •   Efficiency – Is the throughput of the process sufficient?



9
  The goals include mitigating the impact of system downtime/lost productivity and preventing the recurrence of
incidents.
                                                                                                          Page 10
                          Service Operations Command Center Management
                           Can Do More to Benefit From Implementing the
                            Information Technology Infrastructure Library



   •   Compliance – Is the process being followed?
   •   Value – Are we doing what we are supposed to be doing?
Also, metrics should be specific, measurable, attainable, realistic, and time driven. Metrics help
to ensure that the process in question is running effectively and efficiently.
Figure 5 shows the SOCCB experienced declines in each of its measures from FY 2009 to
FY 2010.
                 Figure 5: Comparison of FYs 2009 and 2010 Measures

          Goal/Measure                                    FY 2009           FY 2010
          Tickets Opened for Errors                        9,432              8,241
          Through Event Management
          Probe and Response Guide                          140                 71
          Changed
          Priority Tickets Closed                          86%                69%
          Source: Enterprise Computing Center web site.

When asked about the decline in the percentage of priority tickets closed, SOCCB management
attributed this to the types of tickets the SOCCB received during the later months of the fiscal
year, introduction of a new workload, and more complete ticket reporting.
A September 2010 independent contractor assessment of the ITIL within the Enterprise
Operations organization also identified additional performance measures that will allow the
SOCCB to ensure it makes progress in achieving its future state.
According to SOCCB management, there is limited staffing available to perform ticket trending
that would lead to identifying new performance measures to implement. There is currently only
one person available to do any ticket trending, and this individual has other duties to perform
within the SOCCB. Another reason why SOCCB management has not implemented additional
measures is because of an initiative to improve the accuracy of ITAMS incident ticket data. The
Customer Relationship and Service Delivery staff began this process in summer 2009 by training
its staff on ticket accuracy and in fall 2009 targeted Priorities 1 and 2 tickets to ensure the
accuracy of the data input into key fields (e.g., ticket start time, ticket stop time, and cause code).
Without effective measures to demonstrate continued improvements and quantify cost savings
resulting from implementing new processes, like the ITIL, the SOCCB is at risk of being unable
to fully support the MITS organization in its efforts to effectively reallocate operational savings
to program enhancements.



                                                                                               Page 11
                        Service Operations Command Center Management
                         Can Do More to Benefit From Implementing the
                          Information Technology Infrastructure Library



Recommendations
The Associate Chief Information Officer, Enterprise Operations, should:
Recommendation 3: Update the Enterprise Operations organization strategic plan whenever
an SOCCB ITIL best practice is required to support the goals or objectives of the organization.
The update needs to address the goals, as well as milestone and target dates, completion dates,
benefits, and any associated risks.
       Management’s Response: The IRS agreed with this recommendation. The SOCCB
       will update the Enterprise Operations strategic plan for Problem Management whenever
       an SOCCB ITIL best practice is required to support the goals or objectives of the
       organization.
Recommendation 4: Ensure SOCCB management develops and executes a training plan to
ensure personnel continue to receive customized training in ITIL best practices relevant to the
Command Center.
       Management’s Response: The IRS agreed with this recommendation. The SOCCB
       will develop and execute a training plan to ensure personnel continue to receive
       customized training in ITIL best practices relevant to the Command Center. The training
       plan will be based on available online courses and other courses as budget constraints
       allow.
Recommendation 5: Identify and implement performance measures that will demonstrate the
efficiencies and effectiveness of implementing Event Management, Incident Management, and
Problem Management.
       Management’s Response: The IRS agreed with this recommendation. The SOCCB
       will identify and implement performance measures that will demonstrate the efficiencies
       and effectiveness of implementing Event Management, Incident Management, and
       Problem Management.




                                                                                         Page 12
                           Service Operations Command Center Management
                            Can Do More to Benefit From Implementing the
                             Information Technology Infrastructure Library



                                                                                            Appendix I

         Detailed Objective, Scope, and Methodology

Our overall objective was to determine whether the SOCCB had effectively implemented
ITIL1 best practices to ensure service delivery management for Enterprise Operations products
and services. In prior audits,2 our overall assessment has been that ITAMS data are of
undetermined reliability. However, in our opinion, using these data did not weaken our analysis
or lead to an incorrect or unintentional message. Prior audit reports included language that
clearly stated the data limitations. To accomplish our objective, we:
I.      Reviewed SOCCB program management controls over ITIL implementation.
        A. Interviewed management to obtain their understanding of ITIL best practices, how
           they communicated to employees and stakeholders regarding implementation of the
           ITIL, and the training provided to employees.
        B. Reviewed standard operating procedures, the Internal Revenue Manual, and the
           Concept of Operations to determine whether SOCCB policies and procedures were
           updated to reflect ITIL best practices. In addition, we reviewed documentation which
           showed what benefits the SOCCB expected to accomplish by implementing the ITIL.
        C. Evaluated the process the SOCCB has in place to ensure continuous improvements
           and whether those improvements are delivered.
II.     Determined whether the SOCCB is performing its Event Management, Incident
        Management, and Problem Management functions in accordance with the ITIL.
        A. Reviewed Event Management statistics maintained on the Enterprise Computing
           Center web site and interviewed SOCCB management about Event Management
           activities.
        B. Determined the maturity/status of the SOCCB’s Incident Management activities.
            1. Analyzed all 312 FY 2010 Priority 1 and Priority 2 tickets obtained from SOCCB
               management and the ITAMS to identify average ticket resolution time.

1
 See Appendix IV for glossary of terms.
2
 Management Advisory Report: Review of Lost or Stolen Sensitive Items of Inventory at the Internal Revenue
Service (Reference Number 2002-10-030, dated November 29, 2001), Progress Has Been Made in Using the Tivoli®
Software Suite, Although Enhancements Are Needed to Better Distribute Software Updates and Reconcile Computer
Inventories (Reference Number 2006-20-021, dated December 14, 2005), and Management Practices Over End-user
Computer Server Storage Need Improvement to Ensure Effective and Efficient Storage Utilization (Reference
Number 2007-20-103, dated July 3, 2007).
                                                                                                    Page 13
                       Service Operations Command Center Management
                        Can Do More to Benefit From Implementing the
                         Information Technology Infrastructure Library



           2. Interviewed Customer Relationship and Service Delivery function management
              about the reports it generates for the SOCCB.
           3. Using the ITAMS, selected a judgmental sample of 20 from 97 Priority 1 and
              Priority 2 tickets resolved during FY 2010 and traced them to the Knowledge
              Database to ensure it was updated. We selected tickets from those systems that
              had a higher volume of reported incidents (e.g., Account Management Services,
              Eservices, and the Totally Automated Personnel System) and for which the causes
              of the incidents included System Error, Unknown, or Application Software. We
              used judgmental sampling because we did not intend to project our results.
       C. Interviewed SOCCB management about their Problem Management activities.
       D. Reviewed policies and procedures that define how the SOCCB adds new services and
          applications to its workload.
III.   Determined whether the SOCCB is monitoring and measuring program performance in
       accordance with the ITIL.
       A. Interviewed management to determine how they monitored and measured program
          performance for FY 2010. We determined how and when results are communicated
          to employees and stakeholders.
       B. Compared SOCCB measures to determine whether they align with Enterprise
          Operations organization goals.
       C. Identified the long-range goals that management envisions will show progress in
          SOCCB operations based on ITIL implementation.
       D. Identified the type of quality review process performed and how that information
          influences overall performance.
       E. Determined whether SOCCB management performs any trend analyses of
          performance metrics to ensure repeat incidents have been identified and resolved.
       F. Evaluated how SOCCB management quantifies the efficiencies they gain through
          proactive monitoring (i.e., cost savings).
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: the MITS organization’s policies and
procedures for implementing an effective SOCCB to address the critical issues of addressing
service outages efficiently and utilizing taxpayer resources effectively. We evaluated these

                                                                                        Page 14
                             Service Operations Command Center Management
                              Can Do More to Benefit From Implementing the
                               Information Technology Infrastructure Library



controls by interviewing management and reviewing policies and procedures, such as the
Internal Revenue Manual, Federal guidance such as the Clinger-Cohen Act of 1996,3 and Office
of Management and Budget Circulars and relevant supporting documentation.




3
 Pub. L. No. 104-106, 110 Stat. 642 (codified in scattered sections of 5 U.S.C., 5 U.S.C. app., 10 U.S.C., 15 U.S.C.,
16 U.S.C., 18 U.S.C., 22 U.S.C., 28 U.S.C., 29 U.S.C., 31 U.S.C., 38 U.S.C., 40 U.S.C., 41 U.S.C., 42 U.S.C.,
44 U.S.C., 49 U.S.C., 50 U.S.C.).
                                                                                                            Page 15
                       Service Operations Command Center Management
                        Can Do More to Benefit From Implementing the
                         Information Technology Infrastructure Library



                                                                              Appendix II

                 Major Contributors to This Report

Alan Duncan, Assistant Inspector General for Audit (Security and Information Technology
Services)
Danny Verneuille, Director
Diana Tengesdal, Audit Manager
Mark Carder, Senior Auditor
Myron Gulley, Senior Auditor
Allen Henry, Program Analyst
Sarah White, Program Analyst




                                                                                     Page 16
                      Service Operations Command Center Management
                       Can Do More to Benefit From Implementing the
                        Information Technology Infrastructure Library



                                                                       Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Deputy Chief Information Officer for Operations OS:CTO
Associate Chief Information Officer, Enterprise Operations OS:CTO:EO
Associate Chief Information Officer, Strategy and Planning OS:CTO:SP
Director, Enterprise Computing Center OS:CTO:EO:EC
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Director, Risk Management Division OS:CTO:SP:RM




                                                                             Page 17
                        Service Operations Command Center Management
                         Can Do More to Benefit From Implementing the
                          Information Technology Infrastructure Library



                                                                               Appendix IV

                              Glossary of Terms

             Term                                         Definition
Account Management Services    A project that will modernize the capability to collect, view,
                               retrieve, and manage taxpayer information.

Best Practice                  A technique or methodology that, through experience and
                               research, has proven to reliably lead to a desired result.

Campus                         The data processing arm of the IRS. The campuses process
                               paper and electronic submissions, correct errors, and forward
                               data to the Computing Centers for analysis and posting to
                               taxpayer accounts.

Computer Support Specialist    Position within the SOCCB whose duties include monitoring
                               the mainframes.

Concept of Operations          A framework that includes a defined vision, strategic goals,
                               operational themes, and program capabilities. It identifies key
                               organizational concepts required to achieve the organization’s
                               vision.

E-Services                     Provides a set of web-based business products as incentives to
                               third parties to increase electronic filing, in addition to
                               providing electronic customer account management
                               capabilities to all businesses, individuals, and other customers.

Enterprise Computing Center    Supports tax processing and information management through
                               a data processing and telecommunications infrastructure.

Event Management               The first line of defense for preventing an interruption to or
                               reduction in the quality of service. Event monitoring is used
                               to sustain and improve quality service, identify significant
                               events and initiate actions before an incident occurs, and
                               automate the process.



                                                                                        Page 18
                      Service Operations Command Center Management
                       Can Do More to Benefit From Implementing the
                        Information Technology Infrastructure Library



             Term                                        Definition

Incident Management          The process for managing incidents with the goal of restoring
                             service as quickly as possible and minimizing the adverse
                             impact on the customer.

Information Technology       The workflow tool for all MITS organization service
Assets Management System     providers. This module reports and tracks all MITS
                             organization incidents and service requests.

Information Technology       A set of concepts and techniques for managing information
Infrastructure Library®      technology infrastructure, development, and operations.

Mainframe                    A powerful, multiuser computer capable of supporting many
                             hundreds of thousands of users simultaneously.

Priority 1 Ticket            An incident ticket exhibiting the following characteristics:
                             1) resulting in severe mission-critical work stoppage or any
                             issue relating to safety or health (e.g., fire, electrical shock),
                             2) impacting on vital IRS customer commitments of national
                             or area-wide scope, 3) affecting multiple internal or external
                             customers and service to taxpayers, and 4) requiring
                             immediate action.

Priority 2 Ticket            An incident ticket with the potential to result in a work
                             stoppage (could have a direct impact on the service to
                             taxpayers or if scope is multi-user and there is no
                             work-around) and/or to lead to severe mission-critical work
                             stoppage if actions are not taken to resolve incident.

Probe and Response           Provides information for enhanced triage, first contact
                             resolution, timely incident assignment, standard incident
                             coding, and resolution solutions.

Problem Management           Consists of performing an RCA to mitigate the impact of
                             system downtime/lost productivity caused by errors in the
                             information technology infrastructure and to prevent the
                             recurrence of events.

Release                      A specific edition of software.


                                                                                         Page 19
                        Service Operations Command Center Management
                         Can Do More to Benefit From Implementing the
                          Information Technology Infrastructure Library



           Term                                           Definition

Server                         A computer that carries out specific functions (e.g., a file
                               server stores files, a print server manages printers, and a
                               network server stores and manages network traffic).

Service Level Agreement        A document that describes the minimum performance criteria
                               a provider promises to meet while delivering a service,
                               typically also setting out the remedial action and any penalties
                               that will take effect if performance falls below the promised
                               standard.

Service Restoration Team       A group of individuals who work to rapidly escalate,
                               coordinate, and resolve Priority 1 or Priority 2 outages. The
                               team can leverage resources from outside the Enterprise
                               Computing Center to assist with restoration activities.

Systems Administrator          Position within the SOCCB whose duties include monitoring
                               Enterprise Computing Center networked production servers as
                               well as participating in RCA and Service Restoration Team
                               efforts.

Totally Automated Personnel    Automated personnel system used by management for
System                         processing requests for personnel actions, as well as employee
                               information report generation.

Triage                         Refers to the analysis work that determines the priority of
                               computer applications that need to be remediated.




                                                                                         Page 20
        Service Operations Command Center Management
         Can Do More to Benefit From Implementing the
          Information Technology Infrastructure Library



                                                  Appendix V

Management’s Response to the Draft Report




                                                          Page 21
Service Operations Command Center Management
 Can Do More to Benefit From Implementing the
  Information Technology Infrastructure Library




                                                  Page 22
Service Operations Command Center Management
 Can Do More to Benefit From Implementing the
  Information Technology Infrastructure Library




                                                  Page 23
Service Operations Command Center Management
 Can Do More to Benefit From Implementing the
  Information Technology Infrastructure Library




                                                  Page 24
